TN
COCKLE

Legal Briefs

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:

Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No.
MATTHEW D. WILSON and TROY EDHLUND,
Petitioners,
v.

COOK COUNTY, a public body and corporate,
TONI PRECKWINKLE, Board President, in her
official capacity, and its Board of Commissioners in
their official capacities, namely: JERRY BUTLER,
DEBORAH SIMS, PETER N. SILVESTRI, JOHN F.
DALEY, LARRY SUFFREDIN, GREGG GOSLIN,
TIMOTHY O. SCHNEIDER, LUIS ARROYO JR.,
RICHARD R. BOYKIN, DENNIS DEER, JOHN A.
FRITCHEY, BRIDGET GAINER, JESUS G. GARCIA,
EDWARD M. MOODY, STANLEY MOORE, SEAN M.
MORRISON, JEFFREY R. TOBOLSKI, and THOMAS
DART, Sheriff of Cook County, in his official capacity,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 27th day of November, 2019, send
out from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above
entitled case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the
following:

SEE ATTACHED

To be filed for:

DAVID G. SIGALE* GREGORY A. BEDELL EDWARD J. MURPHY

LAW FIRM OF KNABE, KRONING & BEDELL LIPE LYONS MURPHY

DAVID G. SIGALE, P.C. 20 South Clark Street, NAHRSTADT & PONTIKIS LTD.
799 Roosevelt Road, Suite 2301 230 West Monroe Street,

Suite 207 Chicago, IL 60603 Suite 2260
Glen Ellyn, IL 60137 (312) 977-9119 Chicago, IL, 60606
(630) 452-4547 gbedell@kkbchicago.com G12) i 48: 6234
dsigale@sigalelaw.com

*Counsel of Record ejm@lipelyons.com

Subscribed and sworn to before me this 27th day of November, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary

State of Nebraska
My Commission Expires Nov 24, 2020

Affiant

 

Notary Public 38856

 
SERVICE LIST

Jessica M. Scheller, Esq.

Assistant State’s Attorney

Litigation Division — Civil Actions Bureau
Cook County State’s Attorney’s Office
500 Richard J. Daley Center

Chicago, IL 60602

(312) 603-6934
Jessica.scheller@cookcountyil.gov
Counsel for Respondents
